                                                 Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices                                                                                   20147

                                                                                                                                                Responses
                                                                                                                                Number of                                   Hours per               Total burden
                                                            Form                                                                                    per
                                                                                                                               respondents                                  response                   hours
                                                                                                                                                respondent

      Recertification ..................................................................................................                100                         1                        15            1,500

            Total ..........................................................................................................            140   ........................   ........................          5,500



        Send comments to Susan G. Queen,                                            A. Conducts and supervises audits,                            Section AF.20, Office of Inspector
      Ph.D., HRSA Reports Clearance Officer,                                      investigations, inspections and                                 General—Functions
      Room 10–33, Parklawn Building, 5600                                         evaluations relating to HHS programs                              The component sections that follow
      Fishers Lane, Rockville, MD 20857.                                          and operations.                                                 describe the specific functions of the
      Written comments should be received                                           B. Identifies systemic weaknesses                             organization.
      within 60 days of this notice.                                              giving rise to opportunities for fraud
                                                                                                                                                  Section AFA.00, Immediate Office of
        Dated: April 12, 2005.                                                    and abuse in HHS programs and
                                                                                                                                                  the Inspector General—Mission
      Tina M. Cheatham,                                                           operations and makes recommendations
      Director, Division of Policy Review and                                     to prevent their recurrence.                                       The Immediate Office of the Inspector
      Coordination.                                                                 C. Leads and coordinates activities to                        General (IOIG) is directly responsible for
      [FR Doc. 05–7725 Filed 4–15–05; 8:45 am]                                    prevent and detect fraud and abuse in                           meeting the statutory mission of OIG as
                                                                                  HHS programs and operations.                                    a whole and for promoting effective OIG
      BILLING CODE 4165–15–P
                                                                                                                                                  internal quality assurance systems,
                                                                                    D. Detects wrongdoers and abusers of                          including quality assessment studies
                                                                                  HHS programs and beneficiaries so                               and quality control reviews of OIG
      DEPARTMENT OF HEALTH AND                                                    appropriate remedies may be brought to
      HUMAN SERVICES                                                                                                                              processes and products. The office also
                                                                                  bear.                                                           plans, conducts and participates in a
      Office of Inspector General                                                   E. Keeps the Secretary and the                                variety of interagency cooperative
                                                                                  Congress fully and currently informed                           projects and undertakings relating to
      Statement of Organization, Functions,                                       about problems and deficiencies in the                          fraud and abuse with the Department of
      and Delegations of Authority                                                administration of HHS programs and                              Justice (DOJ), the Centers for Medicare
                                                                                  operations and about the need for and                           & Medicaid Services (CMS) and other
        This notice amends Part A (Office of                                      progress of corrective action, including                        governmental agencies, and is
      the Secretary) of the Statement of                                          imposing sanctions against providers of                         responsible for the reporting and
      Organization, Functions, and                                                health care under Medicare and                                  legislative and regulatory review
      Delegations of Authority for the                                            Medicaid who commit certain                                     functions required by the Inspector
      Department of Health and Human                                              prohibited acts.                                                General Act.
      Services (HHS) to reflect a realignment                                       In support of its mission, OIG carries
      of functions and responsibilities within                                                                                                    Section AFA.10, Immediate Office of
                                                                                  out and maintains an internal quality                           the Inspector General—Organization
      the Office of Inspector General (OIG).                                      assurance system and a peer review
      The statement of organization,                                              system with other Offices of Inspectors                           IOIG is comprised of the Inspector
      functions, and delegations of authority                                     General, including periodic quality                             General, the Principal Deputy Inspector
      conforms to and carries out the statutory                                   assessment studies and quality control                          General and an immediate office staff,
      requirements for operating OIG. Chapter                                     reviews, to provide reasonable                                  including the Office of External Affairs.
      AF was last published in its entirety on                                    assurance that applicable laws,
      July 2, 2004.                                                                                                                               Section AFA.20, Immediate Office of
                                                                                  regulations, policies, procedures,                              the Inspector General—Functions
        The realignment of functions and                                          standards, and other requirements are
      responsibilities within OIG has been                                        followed, are effective, and are                                   As the senior official of the
      done to allow greater staff flexibility and                                 functioning as intended in OIG                                  organization, the Inspector General
      to better reflect the current work                                          operations.                                                     supervises the Chief Counsel to the
      environment and priorities within the                                                                                                       Inspector General and the Deputy
      organization. In addition, this notice                                      Section AF.10, Office of Inspector                              Inspectors General, who head the major
      sets forth a number of technical changes                                    General—Organization                                            OIG components. The Inspector General
      in Chapter AF that serve to update                                                                                                          is appointed by the President, with the
                                                                                    There is at the head of OIG a statutory
      references to office titles and statutory                                                                                                   advice and consent of the Senate, and
                                                                                  Inspector General, appointed by the
      authorities.                                                                                                                                reports to and is under the general
                                                                                  President and confirmed by the Senate.
        As amended, Chapter AF now reads                                                                                                          supervision of the Secretary or, to the
                                                                                  This office consists of six organizational
      as follows:                                                                                                                                 extent such authority is delegated, the
                                                                                  units:
                                                                                                                                                  Deputy Secretary, but does not report to
      Section AF.00, Office of Inspector                                          A. Immediate Office of the Inspector                            and is not subject to supervision by any
      General—Mission                                                               General (AFA)                                                 other officer in the Department. In
         The Office of Inspector General (OIG)                                    B. Office of Management and Policy                              keeping with the independence
      was established by law as an                                                  (AFC)                                                         conferred by the Inspector General Act,
      independent and objective oversight                                         C. Office of Evaluation and Inspections                         the Inspector General assumes and
      unit of the Department to carry out the                                       (AFE)                                                         exercises, through line management, all
      mission of promoting economy,                                                                                                               functional authorities related to the
      efficiency and effectiveness through the                                    D. Office of Counsel to the Inspector                           administration and management of OIG
      elimination of waste, abuse and fraud.                                        General (AFG)                                                 and all mission-related authorities
      In furtherance of this mission, the                                         E. Office of Audit Services (AFH)                               stated or implied in the law or delegated
      organization:                                                               F. Office of Investigations (AFJ)                               directly from the Secretary.


VerDate jul<14>2003       16:08 Apr 15, 2005         Jkt 205001       PO 00000        Frm 00047        Fmt 4703       Sfmt 4703   E:\FR\FM\18APN1.SGM      18APN1
      20148                           Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices

         The Inspector General provides                        includes quality control reviews of OMP               waste and abuse. The office also
      executive leadership to the organization                 processes and products to ensure that                 conducts management studies and
      and exercises general supervision over                   policies and procedures are followed                  analyzes and establishes and
      the personnel and functions of its major                 effectively and function as intended.                 coordinates general management
      components. The Inspector General                                                                              policies for OIG and publishes those
                                                               Section AFC.10, Office of Management
      determines the budget needs of OIG,                                                                            policies in the OIG Administrative
      sets OIG policies and priorities, oversees               and Policy—Organization
                                                                                                                     Manual. It serves as OIG liaison to the
      OIG operations and provides reports to                     The office is directed by the Deputy                Office of the Secretary for personnel
      the Secretary and the Congress. By                       Inspector General for Management and                  issues and other administrative policies
      statute, the Inspector General exercises                 Policy and the Assistant Inspector                    and practices, and on equal employment
      general personnel authority, e.g.,                       General for Information Technology.                   opportunity and other civil rights
      selection, promotion, and assignment of                  The office is comprised of the following              matters. It coordinates internal control
      employees, including members of the                      components:                                           reviews for OIG.
      senior executive service. The Inspector                  A. Budget Operations
      General delegates related authorities as                                                                       Section AFE.00, Office of Evaluation
                                                               B. Information Technology
      appropriate.                                                                                                   and Inspections—Mission
                                                               C. Policy, Planning and Performance
         The Principal Deputy Inspector                                                                                 The Office of Evaluation and
      General assists the Inspector General in                 Section AFC.20, Office of Management                  Inspections (OEI) is responsible for
      the management of OIG, and during the                    and Policy—Functions                                  conducting a comprehensive set of in-
      absence of the Inspector General, acts as                A. Budget Operations                                  depth evaluations of HHS programs,
      the Inspector General.                                                                                         operations and processes to identify
         The Office of External Affairs is                       The office formulates and oversees the
                                                                                                                     vulnerabilities, to prevent and detect
      comprised of three components—Public                     execution of the budget and confers
                                                                                                                     fraud, waste and abuse, and to promote
      Affairs, Legislative and Regulatory                      with the Office of the Secretary, the
                                                                                                                     efficiency and effectiveness in HHS
      Affairs, and the Executive Secretariat.                  Office of Management and Budget, and
                                                                                                                     programs and operations.
      The office conducts and coordinates                      the Congress on budget issues. It issues
      reviews of existing and proposed                         quarterly grants to States for Medicaid               Section AFE.10, Office of Evaluation
      legislation and regulations related to                   Fraud Control Units.                                  and Inspections—Organization
      HHS programs and operations to                           B. Information Technology                               This office is comprised of the
      identify their impact on economy and                                                                           following components:
      efficiency and their potential for fraud                    The office is responsible for
                                                               information resources management                      A. Immediate Office
      and abuse. It serves as the contact for                                                                        B. Policy and Oversight Division
      the press and electronic media and                       (IRM), as defined by the Paperwork
                                                               Reduction Act, OMB Circular A–130,                    C. Program Evaluations Division
      serves as OIG congressional liaison. The                                                                       D. Regional Operations
      office prepares or coordinates                           the Federal Information Resources
                                                               Management regulations, the Computer                  E. Technical Support Staff
      congressional testimony and confers
      with officials in the Office of the                      Security Act of 1987, the Clinger-Cohen               Section AFE.20, Office of Evaluation
      Secretary staff divisions on                             Act, the Federal Information Security                 and Inspections—Functions
      congressional relations, legislation and                 Management Act of 2002, HHS IRM
                                                               Circulars, and by related guidance. The               A. Immediate Office of the Deputy
      public affairs. The office coordinates the                                                                     Inspector General for OEI
      distribution of all legislatively-                       office also provides nationwide
      mandated reports to the Congress. It                     information technology support to OIG                   This office is directed by the Deputy
      develops and publishes OIG newsletters                   through management of its local area                  Inspector General for OEI who, with the
      and other issuances to announce and                      networks, provision of computer end-                  assistance of an Assistant Inspector
      promote OIG activities and                               user and direct mission information                   General, is responsible for carrying out
      accomplishments. The office has                          technology (IT) support, maintenance of               OIG’s evaluations mission and
      primary responsibility for developing                    OIG information systems, and                          supervises the Directors for Policy and
      and promulgating all OIG regulations for                 safeguarding sensitive information and                Oversight, Program Evaluations,
      codification into the Code of Federal                    IT resources. The Assistant Inspector                 Regional Operations, and Technical
      Regulations, and for preparing all OIG                   General for Information Technology,                   Support. This office is also responsible
      related notices and other documents for                  who reports to the Inspector General                  for the oversight of the State Medicaid
      Federal Register publication. The office                 through the Deputy Inspector General                  Fraud Control Units and for certifying
      also serves as OIG liaison to the Office                 for Management and Policy, serves as                  and recertifying these units and for
      of the Secretary for Freedom of                          Chief Information Officer.                            auditing their Federal funding.
      Information and Privacy Act requests.                    C. Policy, Planning and Performance                   B. Policy and Oversight
      Section AFC.00, Office of Management                       This office coordinates the                            This office develops OEI’s evaluation
      and Policy—Mission                                       development of the work planning                      and inspection policies, procedures and
        The Office of Management and Policy                    process, including strategic long-range               standards. It manages OEI’s human and
      (OMP) provides mission support                           planning, tactical planning and the                   financial resources; develops and
      services to the Inspector General and                    annual work plan coordination and                     monitors OEI’s management information
      other components. The office formulates                  production. It compiles the Office of                 systems; and conducts management
      and executes the budget, develops                        Inspector General Semiannual Report to                reviews within the HHS/OIG and for
      functional policies for the general                      the Congress. It is responsible for                   other OIGs upon request. The office
      management of OIG, and manages                           overseeing emergency operations and                   carries out and maintains an internal
      information technology resources.                        national security classification policy,              quality assurance system. The system
        In support of its mission, the office                  and for coordinating updates of the Red               includes quality assessment studies and
      carries out and maintains an internal                    Book, which addresses unimplemented                   quality control reviews of OEI processes
      quality assurance system. The system                     OIG recommendations to reduce fraud,                  and products to ensure that policies and


VerDate jul<14>2003   16:08 Apr 15, 2005   Jkt 205001   PO 00000   Frm 00048   Fmt 4703   Sfmt 4703   E:\FR\FM\18APN1.SGM   18APN1
                                      Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices                                             20149

      procedures are effective, followed, and                  for proposing and litigating civil money              subpoenas issued by OIG, and defends
      functioning as intended.                                 penalty (CMP) and program exclusion                   OIG in litigation matters as necessary.
                                                               cases within the jurisdiction of OIG, for
      C. Program Evaluations                                                                                         B. Administrative and Civil Remedies
                                                               coordinating False Claims Act and
        This office manages OEI’s work                         criminal, civil and administrative fraud                 1. This office is responsible for
      planning process, and develops and                       and abuse law enforcement matters, and                determining whether to propose or
      reviews legislative, regulatory and                      for resolving voluntary disclosure cases.             implement administrative sanctions,
      program proposals to reduce                              OCIG develops guidance to assist                      including CMPs within the jurisdiction
      vulnerabilities to fraud, waste and                      providers in establishing compliance                  of OIG, assessments, and program
      mismanagement. It develops evaluation                    programs; monitors ongoing compliance                 exclusions. The office, in conjunction
      techniques and coordinates projects                      of providers subject to integrity                     with the Office of Investigations (OI),
      with other OIG and Departmental                          agreements; and promotes industry                     effectuates all mandatory and
      components. It provides programmatic                     awareness through the issuance of                     permissive exclusions from
      expertise and information on new                         advisory opinions, fraud alerts, and                  participation in Federal health care
      programs, procedures, regulations and                    special advisory bulletins.                           programs under the Social Security Act;
      statutes to OEI regional offices. It                                                                           decides on all requests for reinstatement
      maintains liaison with other                             Section AFG.10, Office of Counsel to the              from, or waiver of, exclusions; and
      components in the Department, follows                    Inspector General—Organization                        participates in developing standards
      up on implementation of corrective                         The office is directed by the Chief                 governing the imposition of these
      action recommendations, evaluates the                    Counsel to the Inspector General and                  exclusion authorities. The office
      actions taken to resolve problems and                    the Assistant Inspector General for Legal             litigates appeals of program exclusions
      vulnerabilities identified, and provides                 Affairs. The office is comprised of the               before the Departmental Appeals Board
      additional data or corrective action                     following components:                                 and assists DOJ in handling any
      options, where appropriate.                                A. Advice                                           subsequent appeals of such cases to the
                                                                 B. Administrative and Civil Remedies                Federal courts.
      D. Regional Operations                                                                                            2. The office reviews all cases referred
                                                                 C. Industry Guidance
        This office is responsible for OEI’s                                                                         by CMS under the patient anti-dumping
      mission in the field. The regional offices               Section AFG.20, Office of Counsel to the              authority of the Social Security Act and,
      conduct extensive evaluations of HHS                     Inspector General—Functions                           where appropriate, proposes and
      programs and produce the results in                      A. Advice                                             litigates CMPs with respect to hospitals,
      inspection reports. They conduct data                                                                          and CMPs and program exclusions with
      and trend analyses of major HHS                             This office provides legal advice to               respect to physicians, for violations of
      initiatives to determine the effects of                  the various components of OIG on                      the patient anti-dumping statute.
      current policies and practices on                        issues that arise in the exercise of OIG’s               3. The office proposes and litigates
      program efficiency and effectiveness.                    responsibilities under the Inspector                  CMPs, assessments and program
      They recommend changes in program                        General Act of 1978. Such issues                      exclusions under the CMP law and
      policies, regulations and laws to                        include the scope and exercise of the                 other CMP authorities delegated to OIG.
      improve efficiency and effectiveness,                    Inspector General’s authorities and                      4. In coordination with DOJ, the office
      and to prevent fraud, abuse, waste and                   responsibilities; investigative                       handles all False Claims Act cases,
      mismanagement. They analyze existing                     techniques and procedures (including                  including qui tam cases, and is
      policies to evaluate options for future                  criminal procedure); the sufficiency and              responsible for final sign-off on False
      policy, regulatory and legislative                       impact of legislative proposals affecting             Claims Act settlements for the
      improvement.                                             OIG; and the conduct and resolution of                Department, including the resolution of
                                                               investigations, audits and inspections.               the CMP and program exclusion
      E. Technical Support                                     The office evaluates the legal sufficiency            authorities that have been delegated to
         This office provides statistical and                  of OIG recommendations and develops                   OIG. It participates in settlement
      database advice and services for                         formal legal opinions to support these                negotiations and provides litigation
      inspections conducted by the regional                    recommendations. When appropriate,                    support. The office, in conjunction with
      offices. It carries out analyses of large                the office coordinates formal legal                   OI, coordinates resolution of all
      databases to identify potential areas of                 opinions with the HHS Office of the                   voluntary disclosure cases, both under
      fraud and abuse and provides technical                   General Counsel. The office provides                  the OIG Self-Disclosure Protocol and
      assistance to the regional offices for                   legal advice on OIG internal                          otherwise, through: liaison activities
      these purposes.                                          administration and operations,                        with DOJ and U.S. Attorneys offices; the
                                                               including appropriations, delegations of              disclosure verification efforts of the
      Section AFG.00, Office of Counsel to the                 authority, OIG regulations, personnel                 Office of Audit Services (OAS) and OI;
      Inspector General—Mission                                matters, the disclosure of information                and final disposition and sign-off of the
         The Office of Counsel to the Inspector                under the Freedom of Information Act,                 matter. The office is responsible for
      General (OCIG) is responsible for                        and the safeguarding of information                   developing and maintaining a
      providing all legal services and advice                  under the Privacy Act. The office                     comprehensive and coordinated
      to the Inspector General, Principal                      provides advice and guidance on                       database on all settled and pending
      Deputy Inspector General and all the                     Government ethics and assists the Chief               False Claims Act, CMP, and exclusion
      subordinate components of the Office of                  Counsel in his/her role as OIG’s Deputy               cases under its authority.
      Inspector General, in connection with                    Ethics Officer. The office is responsible                5. The office also develops and
      OIG operations and administration, OIG                   for conducting and coordinating                       monitors corporate and provider
      fraud and abuse enforcement and                          litigation activities on personnel and                integrity programs adopted as part of
      compliance activities, and OIG activities                Equal Employment Opportunity matters                  settlement agreements, conducts on-site
      designed to promote efficiency and                       and Federal tort actions involving OIG                reviews, and develops audit and
      economy in the Department’s programs                     employees. The office is responsible for              investigative review standards for
      and operations. OCIG is also responsible                 the clearance and enforcement of                      monitoring such plans in cooperation


VerDate jul<14>2003   16:08 Apr 15, 2005   Jkt 205001   PO 00000   Frm 00049   Fmt 4703   Sfmt 4703   E:\FR\FM\18APN1.SGM   18APN1
      20150                           Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices

      with other OIG components. The office                    management agencies (OMB, the                         recommended—and (2) the Red Book—
      resolves breaches of integrity                           Government Accountability Office                      a summary of significant monetary
      agreements through the development of                    (GAO), the Office of Personnel                        recommendations not yet implemented.
      corrective action plans and through the                  Management (OPM) and the Department                      D. The office serves as the focal point
      imposition of sanctions.                                 of the Treasury) on audit matters                     for all financial management audit
                                                               involving HHS programs and                            activity within the Department and acts
      C. Industry Guidance                                                                                           as the primary liaison between the OIG
                                                               operations. It provides technical
         This office is responsible for drafting               assistance to Federal, State and local                and Departmental management. It also
      and issuing advisory opinions to the                     investigative offices on matters                      provides overall leadership and
      health care industry and members of the                  involving HHS programs and                            direction in carrying out the
      public on whether an activity (or                        operations. It participates in interagency            responsibilities mandated under the
      proposed activity) would constitute                      efforts implementing OMB Circular 133,                Chief Financial Officers Act relating to
      grounds for the imposition of a sanction                 which calls for use of the single audit               financial statement audits.
      under the anti-kickback statute, the                     concept for most external audits, as well
      CMP law or the program exclusion                                                                               Section AFH.10, Office of Audit
                                                               as reviews the quality of those audits as             Services—Organization
      authorities, and on other issues                         they pertain to HHS oversight
      pertaining to the anti-kickback statute.                 responsibilities. It performs audits of                 The office is comprised of the
      The office develops and updates                          activities administered by other Federal              following components:
      procedures for the submission of                         departments, following the system of                  A. Immediate Office
      requests for advisory opinions and for                   audit cognizance administered by OMB.                 B. Financial Management and Regional
      determining the fees that will be                        It participates in the President’s Council              Operations
      imposed. The office solicits and                         on Integrity and Efficiency (PCIE)                    C. Centers for Medicare and Medicaid
      responds to proposals for new                            initiatives and other governmentwide                    Services Audits
      regulatory safe harbors to the anti-                     projects; works with other OIG                        D. Grants and Internal Activities Audits
      kickback statute, modifications to                       components on special assignments and                 E. Audit Management, Policy, and
      existing safe harbors, and new fraud                     projects; and responds to congressional                 Information Technology Audits
      alerts. The office consults with DOJ on                  oversight interests related to audit                  Section AFH.20, Office of Audit
      all proposed advisory opinions and safe                  matters in the Department.                            Services—Functions
      harbors before issuance or publication.                     B. The office provides comprehensive
      The office provides legal advice to the                  audit services to HHS operating                       A. Immediate Office of the Deputy
      various components of OIG, other                         divisions (OPDIVs) and the Office of the              Inspector General for Audit Services
      offices of the Department, and DOJ                       Secretary staff divisions (STAFFDIVs) in                This office is directed by the Deputy
      concerning matters involving the                         their development of program policies                 Inspector General for Audit Services
      interpretation of the anti-kickback                      and management of grants and                          who carries out the functions designated
      statute and other legal authorities, and                 procurement and in their establishment                in the law (section 3(d)(1) of the
      assists those components or offices in                   of indirect cost rates. The office also               Inspector General Act) for the position,
      analyzing the applicability of the anti-                 performs pre-award audits of grant or                 Assistant Inspector General for
      kickback statute to various practices or                 contract proposals to determine the                   Auditing. The Deputy Inspector General
      activities under review.                                 financial capability of the grantees or               for Audit Services is responsible to the
      Section AFH.00, Office of Audit                          contractors and conducts post-award                   Inspector General for carrying out OIG’s
      Services—Mission                                         audits.                                               audit mission and supervises the
                                                                  C. The office reviews legislative,                 Assistant Inspectors General heading
        The Office of Audit Services (OAS)                     regulatory and policy proposals for                   OAS offices described below.
      provides policy direction for and                        audit implications. It recommends
      conducts and oversees comprehensive                      improvements in the accountability and                B. Financial Management and Regional
      audits of HHS programs, operations,                      integrity features of legislation,                    Operations
      grantees and contractors, following                      regulations and policy. It prepares                     This office is directed by the Assistant
      generally accepted government auditing                   reports of audits and special studies for             Inspector General for Financial
      standards (GAGAS), the Single Audit                      the Secretary, heads of HHS OPDIVs,                   Management and Regional Operations.
      Act of 1984, applicable Office of                        regional directors and others. It gathers             In addition to directing this office, the
      Management and Budget (OMB)                              data on unresolved audit findings for                 Assistant Inspector General supervises
      circulars and other legal, regulatory and                the statutorily required semiannual                   the eight Regional Inspectors General for
      administrative requirements. This                        reports to the Congress and reconciles                Audit Services. The office’s principal
      includes investigative audit work                        resolution data with the Department                   functions include the direct-line
      performed in conjunction with other                      OPDIVs as required by the Inspector                   responsibility for audits of financial
      OIG components. The office maintains                     General Act of 1978, as amended by                    statements and financial statement-
      an internal quality assurance system,                    Inspector General Act Amendments of                   related audits, including internal audits
      including periodic quality assessment                    1988 (Public Law 100–504). It conducts                of functional areas within the
      studies and quality control reviews, to                  follow-up examinations and special                    Department, and directing field audit
      provide reasonable assurance that                        analyses of actions taken on previously               operations.
      applicable laws, regulations, policies,                  reported audit findings and                             1. The office serves as the focal point
      procedures, standards and other                          recommendations to ensure                             for all financial statement and financial
      requirements are followed in all audit                   completeness and propriety. The office                statement-related audit activity within
      activities performed for, or on behalf of,               provides input to the Office of Inspector             the Department and serves as the
      the Department. In furtherance of this                   General Semiannual Report to the                      primary liaison between OIG and
      mission, the organization engages in a                   Congress and produces summaries for                   departmental management with respect
      number of activities:                                    both (1) the Orange Book—a summary of                 to those audits.
        A. The office coordinates and confers                  unimplemented program and                               2. The office provides oversight for
      with officials of the central Federal                    management improvements                               audits of governments, universities and


VerDate jul<14>2003   17:22 Apr 15, 2005   Jkt 205001   PO 00000   Frm 00050   Fmt 4703   Sfmt 4703   E:\FR\FM\18APN1.SGM   18APN1
                                      Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices                                            20151

      nonprofit organizations conducted by                     and maintains an OAS-wide quality                     Section AFJ.10, Office of
      nonfederal auditors (external audit                      assurance program that includes the                   Investigations—Organization
      resources) and those under contract                      conduct of periodic quality control                     This office is comprised of the
      with OIG.                                                reviews. It develops audit policy,                    following components:
        3. The office maintains an internal                    procedures, standards, criteria and
      quality assurance system that provides                                                                         A. Immediate Office
                                                               instructions to be followed by OAS staff              B. Investigative Operations
      reasonable assurance that applicable                     in conducting audits of departmental                  C. Investigative Oversight and Support
      laws, regulations, policies, procedures,                 programs, grants, contracts or
      standards and other requirements are                     operations. Such policy is developed in               Section AFJ.20, Office of
      followed in all financial management                     accordance with GAGAS and other                       Investigations—Functions
      audit activities performed by the office,                legal, regulatory and administrative                  A. Immediate Office of the Deputy
      or on behalf of the Department.                          requirements. The office tracks,                      Inspector General for Investigations
      C. Centers for Medicare and Medicaid                     monitors and reports on audit resolution                 This office is directed by the Deputy
      Services Audits                                          and follow-up in accordance with OMB                  Inspector General for Investigations
        This office is directed by the Assistant               Circular A–50, ‘‘Audit Follow-up,’’ and               (DIGI), who is responsible for the
      Inspector General for Centers for                        the 1988 Inspector General Act                        functions designated in the law for the
      Medicare and Medicaid Services Audits.                   Amendments. The office coordinates                    position Assistant Inspector General for
      The office conducts audits of CMS                        with other OIG divisions in developing                Investigations. The DIGI supervises the
      program operations and oversees                          input to the Office of Inspector General              Assistant Inspector General for
      nationwide the audits of the Medicare                    Annual Work Plan, to the Office of                    Investigative Operations and the
      and Medicaid programs, their                             Inspector General’s Orange and Red                    Assistant Inspector General for
      contractors, and providers of services                   Books, and to the Office of Inspector                 Investigative Oversight and Support,
      and products. It maintains an internal                   General Semiannual Report to the                      who head the offices described below.
      quality assurance system to provide                      Congress. The office reviews the design,                 The DIGI is responsible to the
      reasonable assurance that applicable                     development and maintenance of                        Inspector General for carrying out the
      laws, regulations, policies, procedures,                 Department computer-based systems                     investigative mission of OIG and for
      standards and other requirements are                     through the conduct of comprehensive                  leading and providing general
      followed in all CMS audit activities                     audits of general and application                     supervision to the OIG investigative
      performed by, or on behalf of, the                       controls in accordance with GAO’s                     component. The Immediate Office
      Department.                                              Federal Information System Controls                   provides broad guidance and instruction
                                                               Audit Manual and develops and applies                 to staff and serves as the focal point for
      D. Grants and Internal Activities Audits                                                                       interaction within OIG. The Immediate
                                                               advanced computer-based audit
        This office is directed by the Assistant               techniques for use in detecting fraud,                Office handles all investigative and
      Inspector General for Grants and                         waste and abuse in HHS programs.                      management advisory services for the
      Internal Activities Audits. The office                                                                         DIGI, ensuring that the DIGI is briefed
      conducts and oversees audits of the                      Section AFJ.00, Office of                             on all complex, sensitive and precedent-
      operations and programs of the                           Investigations—Mission                                setting program and administrative
      Administration for Children and                                                                                issues that may significantly impact on
                                                                  The Office of Investigations (OI) is
      Families, the Administration on Aging,                                                                         OI management and the investigative
                                                               responsible for conducting and
      and the Public Health programs, as well                                                                        program nationwide. The Immediate
                                                               coordinating investigative activities
      as Statewide cost allocation plans. It                                                                         Office coordinates special
                                                               related to fraud, waste, abuse and
      maintains an internal quality assurance                                                                        investigations, studies and analyses
                                                               mismanagement in HHS programs and
      system, including periodic quality                                                                             with respect to OIG responsibilities and
      control reviews, to provide reasonable                   operations, including wrongdoing by
                                                                                                                     serves as liaison with other Federal,
      assurance that applicable laws,                          applicants, grantees, and contractors, or
                                                                                                                     State and local agencies.
      regulations, policies, procedures,                       by HHS employees in the performance
      standards and other requirements are                     of their official duties. It serves as OIG            B. Investigative Operations
      followed in its audit activities.                        liaison to DOJ on all matters relating to                The Assistant Inspector General for
                                                               investigations of HHS programs and                    Investigative Operations, who
      E. Audit Management, Policy, and                         personnel, and reports to the Attorney                supervises a headquarters staff and the
      Information Technology Audits                            General when OIG has reasonable                       Special Agents in Charge, directs this
         This office is directed by the Assistant              grounds to believe Federal criminal law               office.
      Inspector General for Audit                              has been violated. The office serves as                  1. The headquarters staff assists the
      Management and Policy. The office                        a liaison to CMS, State licensing boards,             Deputy Inspector General for
      manages the human and financial                          and other outside organizations and                   Investigations in establishing
      resources of OAS, including developing                   entities with regard to exclusion,                    investigative priorities, evaluating the
      staffing allocation plans and issuing                    compliance and enforcement activities.                progress of investigations, and reporting
      policy for, coordinating and monitoring                  It works with other investigative                     to the Inspector General on the
      all budget, staffing, recruiting, and                    agencies and organizations on special                 effectiveness of investigative efforts. It
      training activities of the office. It                    projects and assignments. In support of               develops and implements investigative
      maintains a professional development                     its mission, the office carries out and               techniques, programs, guidelines, and
      program for office staff, which meets the                maintains an internal quality assurance               policies. It provides programmatic
      requirements of Government auditing                      system. The system includes quality                   expertise and issues information on new
      standards. The office evaluates audit                    assessment studies and quality control                programs, regulations and statutes. It
      work, including performing quality                       reviews of OI processes and products to               directs and coordinates the investigative
      control reviews of audit reports, and                    ensure that policies and procedures are               regional offices.
      coordinates the development of and                       followed effectively, and are functioning                2. The headquarters staff identifies
      monitors audit work plans. It operates                   as intended.                                          systemic and programmatic


VerDate jul<14>2003   16:08 Apr 15, 2005   Jkt 205001   PO 00000   Frm 00051   Fmt 4703   Sfmt 4703   E:\FR\FM\18APN1.SGM   18APN1
      20152                           Federal Register / Vol. 70, No. 73 / Monday, April 18, 2005 / Notices

      vulnerabilities in the Department’s                      compliance with the Federal Managers                  are necessary for the proper
      operations and makes recommendations                     Financial Integrity Act, the President’s              performance of the functions of the
      for change to the appropriate managers.                  Council on Integrity and Efficiency, and              agency, including whether the
         3. The office develops all derivative                 Attorney General guidelines.                          information shall have practical utility;
      mandatory and permissive program                           4. The office coordinates with the                  (b) the accuracy of the agency’s estimate
      exclusions, and ensures enforcement of                   other OIG components in developing                    of the burden of the proposed collection
      exclusions imposed through liaison                       the Work Plan and provides input to the               of information; (c) ways to enhance the
      with CMS, DOJ and other governmental                     Office of Inspector General Semiannual                quality, utility, and clarity of the
      and private sector entities. It is                       Report to the Congress.                               information to be collected; and (d)
      responsible for developing, improving                      5. The staff provides for the personal              ways to minimize the burden of the
      and maintaining a comprehensive and                      protection of the Secretary.                          collection of information on
      coordinated OIG database on all OIG                        6. The office maintains an automated                respondents, including through the use
      exclusion actions, and promptly and                      data and management information                       of automated collection techniques or
      accurately reports all exclusion actions                 system used by all OI managers and
                                                                                                                     other forms of information technology.
      within its authority to the database. It                 investigators. It provides technical
      informs appropriate regulatory agencies,                 expertise on computer applications for                Proposed Project: The Evaluation of
      health care providers and the general                    investigations and coordinates and                    Networking Suicide Prevention
      public of all OIG exclusion actions, and                 approves investigative computer                       Hotlines Follow-Up Assessment—NEW
      is responsible for improving public                      matches with other agencies.
      access to information on these exclusion                   7. The office operates a toll-free                    The Substance Abuse and Mental
      actions to ensure that excluded                          hotline for OIG to permit individuals to              Health Services Administration’s
      individuals and entities are effectively                 call in suspected fraud, waste, or abuse;             (SAMHSA), Center for Mental Health
      barred from program participation.                       refers the calls for appropriate action by            Services has funded a National Suicide
         4. The regional offices conduct                       HHS agencies or other OIG components;                 Prevention Lifeline Network, consisting
      investigations of allegations of fraud,                  and analyzes the body of calls to                     of a single toll-free telephone number
      waste, abuse, mismanagement and                          identify trends and patterns of fraud and             that routes calls from anywhere in the
      violations of standards of conduct                       abuse needing attention.                              United States to a network of local crisis
      within the jurisdiction of OIG in their                    8. The office promotes and                          centers. In turn, the local centers link
      assigned geographic areas. They                          coordinates the adoption of advanced                  callers to local emergency, mental
      coordinate investigations and confer                     information technology forensics in the               health, and social service resources.
      with HHS operating divisions, staff                      prevention and detection of fraud and
      divisions, OIG counterparts and other                    provides general and specific                            With input from multiple experts in
      investigative and law enforcement                        coordination of programs to retrieve and              the field of suicide prevention, the
      agencies. They prepare investigative and                 analyze computer-based forensic                       project created a telephone interview
      management improvement reports.                          evidence.                                             survey to collect data on follow-up
         5. The office directs and manages                                                                           assessments of consenting individuals
                                                                 Dated: March 23, 2005.
      extremely sensitive and complex                                                                                calling the Lifeline network. The
                                                               Daniel R. Levinson,
      investigations into alleged misconduct                                                                         ‘‘Evaluation of Networking Suicide
      by OIG and Department employees, as                      Acting Inspector General.                             Prevention Hotlines Follow-Up
      well as criminal investigations into                     [FR Doc. 05–7612 Filed 4–15–05; 8:45 am]              Assessment’’ will provide an empirical
      electronic and/or computer-related                       BILLING CODE 4152–01–P                                evaluation of crisis hotline services,
      violations.                                                                                                    necessary to optimize public health
      C. Investigative Oversight and Support                                                                         efforts to prevent suicidal behavior.
                                                               DEPARTMENT OF HEALTH AND
         This office is directed by the Assistant              HUMAN SERVICES                                          Three hundred and sixty callers will
      Inspector General for Investigative                                                                            be recruited from seven of the
      Oversight and Support, who performs                      Substance Abuse and Mental Health                     approximately 100 crisis hotline centers
      the general management functions of the                  Services Administration                               that participate in the Lifeline network.
      Office of Investigations.                                                                                      Trained crisis workers will conduct the
                                                               Agency Information Collection
         1. This office manages the human and                                                                        follow-up telephone assessment (‘‘Crisis
                                                               Activities: Proposed Collection;
      financial resources of OI, including                                                                           Hotline Telephone Followup
                                                               Comment Request
      developing staffing allocation plans and                                                                       Assessment’’) within one month of the
      issuing policy for coordination and                        In compliance with Section                          initial call. Assessments will be
      monitoring all budget, staffing and                      3506(c)(2)(A) of the Paperwork                        conducted only one time for each client.
      recruiting.                                              Reduction Act of 1995 concerning                      Strict measures to ensure confidentiality
         2. This office plans, develops,                       opportunity for public comment on                     will be followed.
      implements and evaluates all levels of                   proposed collections of information, the
                                                                                                                        The resulting data will measure (1)
      employee training for investigators,                     Substance Abuse and Mental Health
                                                                                                                     suicide risk status at the time of and
      managers, support staff and other                        Services Administration will publish
                                                                                                                     since the call, (2) depressive symptoms
      personnel. It oversees a law enforcement                 periodic summaries of proposed
                                                               projects. To request more information                 at follow-up, (3) service utilization since
      techniques and equipment program.
         3. This office coordinates the general                on the proposed projects or to obtain a               the call, (4) barriers to service access,
      management processes, and implements                     copy of the information collection                    and (5) the client’s perception of the
      policies and procedures published in                     plans, call the SAMHSA Reports                        efficacy of the hotline intervention. The
      the OIG Administrative Manual and                        Clearance Officer on (240) 276–1243.                  estimated annual response burden to
      elsewhere. It also coordinates a national                  Comments are invited on: (a) Whether                collect this information is as follows:
      inspection program to ensure                             the proposed collections of information


VerDate jul<14>2003   16:08 Apr 15, 2005   Jkt 205001   PO 00000   Frm 00052   Fmt 4703   Sfmt 4703   E:\FR\FM\18APN1.SGM   18APN1
